~'OCKLE

~Leg a l

23 I I Douglas Street
Omaha, N ebraska 68 102- 12 14

Briefs
Est. i9 23

1-800-225-6964
(402) 342-283 1
Fax: (402) 342-4850

E-Mail Address:
contact@cock lelegalbriefs.com
Web Site
www.cockle legalbriefs.com

No. - - -KEVIN BYRD,
Petitioner,

v.
RAY LAMB,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. 1(h), I ce1tify that the PETITION FOR A WRJT OF
CERTIORARJ in the above entitled case complies with the typeface requirement of Supreme Comt
Rule 33 .1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7609 words, excluding the parts that are exempted by Supreme
Comt Rule 33.1 (d), as needed.

Subscribed and sworn to befo re me th is 6th day of August. 202 1.
J am duly authorized under the laws of the State of Nebraska to admi nister oaths.

HERAL. NOTARY-State of Nellraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

Affiant

4 11 29

